Semiannual
Report to Congress




                     October 2012
Cover photo of a wind turbine farm in the Mojave Desert in California,
courtesy of Shutterstock.

This report is printed on recycled paper with soy-based inks.
                                                                                  October 2012
                                                                                     April 1, 2012 - September 30, 2012



Contents
About DOI and OIG................................................................................................ii

Message From the
Deputy Inspector General.....................................................................................iii

OIG Operating Principles.......................................................................................v

Office of Inspector General....................................................................................1

Summaries of Significant Reports and Investigations........................................5

Appendices................................................................................................................23


         Editors                    Contributors                        Images                      Production

                                      Donald Cairns
                                       Joann Gauzza
   Kimberly Balderson                                                     OIG
                                      Joel Guenther                                               Kimberly Balderson
     Robert Gettlin                                                   Shutterstock
                                       Mary Maruca
                                        Mary Strand
About DOI and OIG
        The U.S. Department of the Interior (DOI) is a large, decentralized agency with
employees and volunteers serving in approximately 2,400 operating locations across the United
States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500
million acres of America’s public land, or about one-fifth of the land in the United States,
and 56 million acres of Indian Trust lands. DOI is also responsible for a variety of water and
underwater resources, including hundreds of dams and reservoirs and thousands of oil and
gas leases on millions of acres of the outer continental shelf. Approximately 30 percent of the
Nation’s energy production comes from projects on DOI-managed lands and offshore areas. DOI
scientists conduct a wide range of research on biology, geology, and water to provide land and
resource managers with critical information for sound decisionmaking. DOI lands also provide
outstanding recreational and cultural opportunities to numerous visitors worldwide.

       The Office of Inspector General (OIG) promotes excellence, integrity, and
accountability in these DOI programs. With about 265 employees, the organization is driven
by a keen sense of mission and is dedicated to providing products and services that impact DOI
mission results.




ii                                                              Back to Toc
Message From the
Deputy Inspector General




Providing independent and objective oversight of the U.S. Department of the Interior and
identifying risks and vulnerabilities that affect its many bureaus, programs, and operations
is OIG’s core mission. To carry out our mission effectively, and with excellence, requires
continuous outreach to and constructive feedback from our key stakeholders—DOI, Congress,
and the U.S. Department of Justice (DOJ). In this semiannual report covering the 6-month
period from April 1 to September 30, 2012, we highlight our various approaches and methods
to building and strengthening this vital communication link that ensures OIG maintains its
credibility and capacity to influence positive change.

In addition to our diverse audits, inspections, evaluations, and investigations, we provided
high-quality information to DOI leaders and staff through briefings and trainings, responded
to requests to help bureaus adjust and improve their processes, continued robust outreach with
congressional oversight committees, and conferred and coordinated with our DOJ partner. In
every case, our purpose was to give policymakers and legislators actionable information and
recommendations to prevent or deter fraud, waste, and mismanagement, and to understand
priorities to guide our future work. I invite you to read more about our stakeholder outreach on
pages 1-3 of this report.

During the 6-month period, OIG issued reports covering a wide range of DOI activities. Our
evaluation of oil and gas leasing in Indian Country found that by making programmatic,
management, and other improvements, the Bureau of Indian Affairs has an opportunity to
increase economic development and promote self-determination in Indian communities. In our
audit of DOI’s management of rights-of-way, we found that the Bureau of Land Management
could collect an additional $100 million or more in annual rents by charging market value rents
and improving management of this highly important National program. We also evaluated the
Guam Power Authority’s ability to maintain its infrastructure and expand and improve service
and reliability, as well as Juan F. Luis Hospital and Medical Center in the Virgin Islands, which
faces a precarious future due to annual financial losses and ineffective management. You can
read more about these and other audits, inspections, and evaluations on pages 5 – 14.



                                                                                                    iii
The results of our many investigative activities during the 6-month period included the
sentencing of a former offshore rig manager for lying to Federal agents about his instruction
to his employees to falsify blowout preventer tests, and the payment of a $4 million settlement
to the Federal Government by an energy services company for violations of the False Claims
Act. Other cases involved conviction and sentencing of various Federal employees and private
individuals for criminal activities that affected the Bureau of Indian Affairs, the U.S. Fish and
Wildlife Service, and the National Park Service. You can read about the results of our activities
on pages 15 – 21.

As we move forward in fiscal year 2013—a time that demands perhaps unprecedented
stewardship of Federal Government finances—OIG leaders and staff are taking every action
possible to conserve our own resources and adopt best practices so that we continue to deliver
effective, cost-efficient oversight while helping to drive improvement and positive change at
DOI.




                                                 Deputy Inspector General




iv                                                                        Back to Toc
OIG Operating Principles

Mission
OIG’s mission is to provide independent oversight and promote excellence, integrity, and
accountability within the programs, operations, and management of the U.S. Department of the
Interior.

Values
OIG operates as an independent oversight organization responsible to the American people,
DOI, and Congress. We abide by the highest ethical standards and have the courage to tell our
customers and stakeholders what they need to know, not what they wish to hear. Our core values
help us fulfill our mission and include—

 •     placing highest value on objectivity and independence to ensure integrity in our
       workforce and products;
 •     striving for continuous improvement; and
 •     believing in the limitless potential of our employees.

Responsibilities
OIG is responsible for independently and objectively identifying risks and vulnerabilities that
directly impact DOI’s ability to accomplish its mission. We are required to keep the Secretary
and Congress informed of problems and deficiencies relating to the administration of DOI
programs and operations. As a result of us fulfilling these responsibilities, Americans can expect
greater accountability and integrity in Government program administration.

Activities
OIG accomplishes its mission by conducting audits, inspections, evaluations, and investigations
relating to DOI programs and operations. Our activities are tied to major departmental
responsibilities and assist DOI in developing solutions for its most serious management and
program challenges. These activities are designed to ensure that we prioritize critical issues. Such
prioritizing provides opportunities to influence key decisionmakers and increases the likelihood
that we will achieve desired outcomes and results that benefit the public.




                                                                     Back to Toc                     v
Office of
Inspector General
Stakeholder Outreach
Given its responsibility to oversee a department with 70,000 employees and bureaus with diverse
missions, OIG strategy is to develop and provide information through audits, inspections,
evaluations, and investigations about DOI’s high-priority programs. We define high-priority
programs as programs posing the most significant risks, including those that help to ensure
public safety and sustainability of DOI lands and resources. We seek to provide timely, relevant,
actionable, and objective recommendations related to DOI’s highest priority issues to help DOI
take the most effective action.

To help achieve this strategy, OIG gathered information from its primary stakeholders—DOI,
the U.S. Department of Justice (DOJ), and Congress. OIG considers stakeholder feedback when
choosing the focus of its reviews and identifying ways to improve its oversight. OIG leadership
met with senior officials at DOI and DOJ and with congressional committees to determine
whether completed investigations and audits were timely, relevant, and provided actionable
information, and to discuss high-priority programs and issues. DOI officials used these
discussions to request OIG reviews of specific programs.

Leadership met with officials at the Bureau of Land Management (BLM), the National Park
Service (NPS), the Bureau of Reclamation (USBR), the Office of Ethics, and the Office of the
Solicitor, and also briefed the Acting Assistant Secretary for Land and Minerals Management.
Leadership also met with DOJ’s Public Integrity Office on scientific misconduct issues and
DOI’s buildup in Guam in preparation for the U.S. Department of Defense relocation from Japan.
Congressional briefings included the House of Representatives Committees for Small Business,
Science, Natural Resources, Oversight and Government Reform, and Appropriations, as well as
the Senate Committees for Budget, Appropriations, and the Environment and Public Works.

U.S. Department of the Interior

OIG independence and objectivity. OIG independence is critical to maintaining its
credibility and capacity to influence positive change. DOI has sought OIG’s review on a number
of matters that it did not feel it could resolve without OIG’s independence and objectivity. This
demonstrates DOI’s confidence that OIG’s work can have a substantial impact on how DOI
conducts business. For example, OIG helped one bureau improve its procurement processes
and hold contractors more accountable after an investigation uncovered flawed policies and
procedures.




                                                                                                  1
Quality of OIG information. Several bureau officials commented that the quality of
information OIG provides is essential to their ability to take necessary corrective actions. For
example, staff in the Office of the Solicitor and the Office of Ethics commended OIG’s Office
of Investigations for the quality of information in its reports, stressing that OIG information
helps these offices make effective recommendations and provide advice on administrative
personnel actions to DOI officials. One bureau official said that he appreciated OIG’s thoughtful
recommendations while acknowledging the challenges OIG faces in balancing quality work with
timely delivery.

Communication and Coordination. Communication and coordination among OIG, DOI,
and DOJ throughout several investigations also contributed to favorable outcomes for DOI.
USBR officials cited the quality of information that OIG investigators collected while conducting
a criminal investigation, and the high level of coordination among OIG, DOI’s local solicitor,
USBR, and the U.S. Attorney’s Office as vital to reaching a successful civil settlement with the
alleged wrongdoers.

Requests for OIG briefings and training. OIG received numerous requests to brief or
train bureau leadership and staff. Bureau officials expressed interest in learning about the OIG
investigative and audit processes, OIG’s expectations of the bureaus during program reviews
and investigations, and the process for referring matters to OIG. Several DOI officials, NPS
senior leaders, and BLM senior management also expressed interest in receiving briefings on
ethics and misconduct issues. NPS officials requested that OIG reinstate its presentations to
NPS law enforcement officers at the Federal Law Enforcement Training Center and to NPS
superintendents with law enforcement responsibilities.

Requests to alter OIG processes. DOI requested that OIG adjust two of its processes that
DOI officials felt placed an undue burden on departmental staff. In response, OIG agreed to
refer complaints on an informational basis only and not require a response from offices that do
not have the capacity to investigate complaints. OIG also agreed to do the same when organized
interest groups submit the same or similar complaints on a recurring basis.

Two bureaus or offices also requested to receive advance notice when OIG reports will be made
public, or when OIG will be responding to a FOIA request, to provide them more time to prepare
for media inquiries. While OIG strives to keep DOI informed in a timely manner whenever a
report is made public, OIG has also made adjustments to its internal procedures to better ensure
that notification occurs consistently and timely to DOI and congressional staff.




2
U.S. Department of Justice

OIG met with the Chief of the Public Integrity Section (PIN) at DOJ to discuss scientific
integrity cases and potential issues with the U.S. Department of Defense military buildup in
Guam.

DOJ officials requested that OIG brief them early in the investigative process on scientific
integrity cases because these cases are difficult to prosecute. Very few administrative sanctions
are available, and criminal cases require a high burden of proof of intent to deceive or commit
fraud.

OIG also conferred with PIN over potential issues in Guam and what kinds of cases PIN
would consider for prosecution. PIN takes on complex, high-profile corruption cases that
local authorities in the territories of Guam and American Samoa do not have the resources to
prosecute.

Congress

OIG continued its robust and proactive congressional outreach program this fiscal year, providing
process briefings, specific case briefings, testimony, and oversight assistance to congressional
staff. This effort required developing strong lines of communication with oversight committees.

Senior leadership provided frequent briefings on recently completed work, as well as current and
future areas of work. Briefings this past year included discussions on DOI’s grants process; the
scientific integrity process and the respective roles of both DOI and OIG; and the various OIG
operational processes for investigations, audits and evaluations, and oversight of the American
Recovery and Reinvestment Act. OIG also provided briefings on specific cases, including the
Drakes Bay Oyster Farm investigation, an investigation into allegations of scientific misconduct
involving polar bears in Alaska, the Gulf drilling moratorium case, the ongoing Mad River
investigation, and details of the ongoing audit of the Coastal Impact Assistance Program.

OIG uses these briefings to solicit input from committee members to understand their priorities
and concerns and carefully considers this input when prioritizing future assignments.




                                                             Back to Toc                            3
Summaries of
Significant Reports
and Investigations
Office of Audits, Inspections, and Evaluations
Oil and Gas Leasing in Indian Country Provides Opportunities for
Economic Development

According to the U.S. Department of Energy, Indian Country (land owned by Indian tribes or
nations) totals approximately 5 percent of the United States’ land base but contains an estimated
10 percent of the Nation’s energy resources. In a combined area slightly larger than Utah, Indian
Country has approximately 20,600 active oil and gas leases. An overwhelming majority of
these leases—94 percent—are in 5 of the Bureau of Indian Affairs’ (BIA) 12 regions (Eastern
Oklahoma, Great Plains, Rocky Mountain, Southern Plains, and Southwest), and about 10,700
were issued in the past 5 years. Royalties to tribes received from Indian leases exceeded $430
million in fiscal year 2011.

BIA reviews and approves oil, gas, and other mineral leases on Indian lands, but has no formal
oil and gas program to provide oversight and assistance. The Bureau does not have a sufficient
number of employees with the education and work experience specific to oil and gas. Employees
stationed at regional or agency offices typically acquire their knowledge on the job and often do
not have the necessary resources to provide efficient assistance.




Pumping unit used for producing oil on tribal lands.

                                                                                                5
OIG found a need for focused, coordinated program management of Indian oil and gas
development. As Indian oil and gas leases have increased in the last 5 years, BIA continues to
approve leases without formal policies and procedures to ensure consistency and transparency.
BIA also applies National Environmental Policy Act requirements inconsistently and has no
long-term planning process for program management.

Current impediments to development include inconsistent policies and procedures among
regions, funding shortfalls, and fractionated ownership of allotted lands. Despite these
impediments, however, opportunities exist, both to attract oil and gas industry development to
Indian lands and to promote Indian self-determination through the lease process.

OIG reported that, with minimal additional funding, BIA could solve or mitigate most
impediments to oil and gas development in Indian Country. It recommended actively promoting
the advantages of Indian leases to industry, implementing consistent internal processes within
BIA, and involving Federal agencies such as the Bureau of Land Management, which plays a
significant role in policy development for oil and gas leasing.

Aging Infrastructure, Military Buildup May Affect GPA’s Ability To
Meet Citizens’ Needs

OIG evaluated Guam Power Authority’s (GPA) ability to properly account for the condition and
maintenance of key infrastructure components and assessed efforts to expand service capacity,
improve reliability, ensure continuity of service for critical facilities, prepare for contingencies,
and incorporate alternative energy sources.

GPA, established in May 1968 as a Government of Guam public corporation, supplies electrical
services on Guam to residential and commercial customers, the Government of Guam, and the
U.S. Navy. In fiscal year 2010, it served approximately 47,800 customers—the single largest of
which was the U.S. Navy, which accounted for 19 percent of GPA’s revenues.

In 2011, Guam’s population, including the military, was approximately 180,000. Due to the
potential military buildup that is expected to occur after 2014, Guam’s population may increase
with the relocation of Marines and their dependents and support services to the island. The
buildup will require additional power demand, and GPA recognizes that its generation and
transmission upgrades are required to meet the direct needs of the buildup.

GPA has been working with the U.S. Department of Defense (DoD) to ensure there is adequate
capacity to serve the load of military projects targeted for the island in a timely manner. To
complement GPA’s existing generation system, DoD has expressed its desire to recondition up to
five combustion turbine units. The successful reconditioning of existing generation units, and the
6
completion of required transmission and distribution system upgrades, will minimize the impact
on the power utility caused by the anticipated increase in demand.

Despite significant improvements made to its generation, transmission, and distribution facilities
in the past few years, GPA faces an unprecedented challenge in keeping up with its aging
infrastructure and preparing for the impending military buildup.

In addition to the challenges of an aging infrastructure, GPA is also affected by differing
priorities with its military buildup partners—the Government of Japan and DoD. GPA has yet to
receive funds that Japan committed for some projects, and it is unclear when and how the
funding will be secured. Failure to receive the funds for military-related projects in a timely
manner may cause unnecessary disruption of power to both the civilian and military populations
of Guam. Furthermore, despite GPA’s positive relationship with the military, numerous issues
between DoD and GPA remain unresolved and may potentially place additional strain on GPA
and its ratepayers.

GPA has taken steps necessary to improve the condition of key infrastructure components,
expand service capacity, increase reliability, and incorporate renewable or alternative energy
sources, but must secure funding in a timely manner and remain flexible to adapt to changing
energy needs.

BLM and BIA Have Opportunities To Improve Compliance With
National Bridge Safety Inspection Standards

An OIG evaluation determined that the Bureau of Land Management (BLM) had not submitted
its bridge inspection data prior to the evaluation for inclusion in the National Bridge Inventory
(NBI) database. By law, bridges that are publicly accessible and greater than 20 feet in length
must meet the National Bridge Safety Inspection Standards found in 23 CFR § 650, and
inspection data must be included in the NBI. OIG also found that BLM did not know the exact
number of bridges in its inventory. In addition, inventory management errors at the Bureau of
Indian Affairs (BIA) caused inspection timetables to be missed and bridges belonging to BIA to
not be properly identified and inspected.

BLM and BIA collectively have responsibility for approximately 1,432 public bridges. Federal
law requires that public bridges meeting certain criteria are to follow the National Bridge Safety
Inspection Standards that specify inspection procedures and frequency, among other elements.
The standards require bridge inspections once every 2 years, and that inspection data is submitted
at the request of the Federal Highway Administration (FHWA) for the NBI database.


                                                                                                    7
                                                           OIG found that BLM does have complete data
                                                           available to submit on approximately half of its
                                                           NBI-eligible bridges because it contracts with
                                                           FHWA to have those bridges inspected according to
                                                           the standards. Its remaining bridges are inspected by
                                                           BLM personnel, using criteria established by the
                                                           Bureau that does not completely mirror the same
                                                           information required by NBI. Consequently, certain
                                                           inspection data have been omitted from these
                                                           Bureau-inspected bridges. Critical information
                                                           missing from reports include load data, which is
                                                           necessary to determine the maximum vehicle
                                                           weight the bridge can safely handle, or scour data,
                                                           which is used to assess the degree of erosion and
                                                           water damage to piers and abutments for structures
                                                           spanning rivers or streams. The absence of such
                                                           data critical to determining the safety of these
                                                           bridges offers no assurance that BLM inspections
                                                           are conducted at a level consistent with what would
                                                           be required to ensure adequate bridge safety.

                                                           OIG also found that while BIA required its bridge
                                                           inspectors to follow the National standards, the
                                                           completeness and accuracy of data maintained in
                                                           the Bureau’s bridge inventory could not be validated
                                                           in every instance. Discrepancies included bridges
                                                           unintentionally left off the inventory list, bridges
                                                           closed to vehicle traffic but retained on the
                                                           inventory list, and a bridge not actually owned by
                                                           BIA but still listed on the inventory. Such
                                                           discrepancies raise concern about BIA’s ability to
                                                           ensure complete accuracy of its database, timeliness
                                                           of its bridge inspections, and safety of the bridges
    Coolidge Dam structure on the Gila River in Arizona.   managed by the Bureau. We also identified
                                                           contracting issues that needed to be resolved for the
                                                           Bureau to comply with Federal requirements and to
                                                           ensure the validity of its bridge inspections.




8
BLM and BIA need to improve management oversight and documentation of the bridges in their
inventories, as well as the reliability and effectiveness of their bridge inspection practices.
Compliance with the requirements established by the standards provides the greatest assurance
that bridges are as safe as possible for public use.

Equestrian Facility Costly to BLM, Unsafe for Continued Public Use

An inspection of the Bureau of Land Management (BLM) Lower Potomac Station’s Meadowood
Equestrian Facility, in Lorton, VA, determined that BLM used horse-boarding fees collected
from private and public boarders for the intended purpose under the terms of the services
contract with CAS Company. OIG found, though, that the horse-boarding fee structure cannot
sustain the current level of service provided over time because of increasing operating costs and
limited use of the facility. In addition, an environmental assessment conducted in May 2012
concluded that the barn violates safety standards for public use.

Under the terms of the 5-year services contract with CAS Company, private users pay BLM a flat
fee of $700 per month to board their horses at the facility, and BLM pays subsidies to fulfill the
monthly rate required by the contract to manage daily operations at the facility. The contract,
however, specifies a reduction in the number of horses boarded at the facility each year where the
monthly rate to manage the facility increases. Boarders continue to pay the $700 flat fee while
monthly subsidies paid by BLM to CAS Company increase each contract year.

In addition, the existing services contract was not designed to provide funds to maintain an
equestrian barn that complies with current safety or structural standards. In May 2012, an
environmental assessment concluded that the barn violates Federal and State public use safety
standards and poses risks to the health and safety of both horses and people. The environmental
assessment provides BLM with options for repair or renovation, or to close the barn indefinitely.

BLM has not determined when it will make a decision regarding the facility, but it has set aside
$800,000 in deferred maintenance funds that could be used to renovate the barn. BLM should
consider the financial sustainability of the program and the health and safety risks of continued
public use to determine the future of the facility.

BIA Staffing Contract Did Not Provide Intended Benefit

OIG evaluated the Bureau of Indian Affairs’ (BIA) law enforcement recruitment contract with
the National Native American Law Enforcement Association (NNALEA) to determine whether
BIA Office of Justice Services (OJS) received the intended benefit from the contract.


                                                                                                    9
In OIG’s previous review of staffing needs for BIA detention facilities, OIG learned that in June
2009, BIA awarded a $1 million, 1-year contract to NNALEA to help recruit and hire critically
needed law enforcement officers (police, corrections, and criminal investigator positions) to work
in Indian Country. OIG’s review of that contract identified deficiencies in the award process,
price negotiation, and contract performance requirements, as well as a vague statement of work.

As a result, OIG issued a management advisory report recommending that BIA terminate the
contract. Based on the report and advice from the Office of the Solicitor, BIA terminated the
contract for convenience in February 2010. At that time, the contract had been in place for 8
months and BIA had paid $967,100—nearly the entire contract value of $1 million—to
NNALEA.

In the most recent evaluation, OIG found that OJS received no benefit when it awarded the
recruitment services contract to NNALEA, thus wasting almost $1 million. This occurred
because BIA violated the Federal Acquisition Regulation and departmental policy, and failed
to use its available human resources experience in developing contract terms. The Federal
Acquisition Regulation provides uniform policies and procedures for acquisition and requires
full and open competition. Among its guiding principles is to have an acquisition system
that conducts business with integrity, fairness, and openness. BIA ignored regulations and
departmental policy, choosing to negotiate contract terms with a contractor without the benefit of
expert advice.

These failures resulted in a poorly written contract, which was developed in conjunction with
NNALEA, with significant contract defects in terms and conditions. NNALEA took advantage of
OJS and the contract defects to produce unusable contract deliverables.

By increasing its internal control and accountability efforts over its contracting program, BIA can
ensure that future contracts comply with the Federal Acquisition Regulation and departmental
policy.

Virgin Islands Hospital Faces Fiscal Crisis

OIG evaluated Juan F. Luis Hospital and Medical Center (JFLH), which serves the residents of
St. Croix, VI, as well as all visitors traveling to this island community, and determined that the
current fiscal crisis is jeopardizing the future of the hospital as an effective treatment facility.

Through the years, JFLH has provided patients with medical attention regardless of their
ability to pay. Services are available 24 hours a day, 7 days a week, to meet the needs of
approximately 51,000 residents and more than 300,000 visitors annually. The hospital exists
through a partnership arrangement with the Government of the Virgin Islands, which is intended
10
to encourage hospital self-sufficiency and provide adequate health care delivery. Reporting
continual deficits, however, JFLH calculated average annual operating losses at $35 million from
fiscal year 2005 through fiscal year 2010. The Government of the Virgin Islands provided an
annual average of $26.7 million to JFLH over the same period to offset losses.

With annual financial losses on the increase, however, the hospital has managed its resources
with a business-as-usual approach that has further imbalanced revenue and expenses. It has
managed to stay afloat, using measures that continue to draw down its fiscal resources and
deepen its deficit.

Although the current hospital CEO has noted that JFLH systems are either “bruised or broken,”
the hospital still has the capacity and the opportunity to take fundamental steps to reduce its
debt load and revitalize its services. Chief among these is improving its revenue management.
JFLH has demonstrated losses in the tens of millions of dollars because steps have not been
taken to ensure the timely collection of patient accounts receivable, third-party reimbursements,
and internal service agreements. As of December 2011, patient accounts receivable were valued
at more than $68 million. After allowances had been made for accounts deemed uncollectible
and for normal adjustments made by third-party insurers, however, JFLH valued its outstanding
patient accounts receivable at roughly $11.5 million. This disparity between actual receivables
and what JFLH views as collectible underscores JFLH’s difficulties with obtaining payment for
services rendered.

In addition, although strapped for cash, JFLH has not exercised fiscal restraint. Its resulting debt
has hindered payment of outstanding bills as they have come due and plunged the hospital into
an ever-deepening cycle of untimely payments that require both service charges and late fees,
and jeopardize long-standing relationships with vendors. JFLH also has not properly monitored
its agreements to reduce the frequency of overpayments, prepayments, and unsupported
payments.

Although no easy solutions exist to improve JFLH’s fiscal crisis, focusing on balancing ongoing
expenses with incoming revenue could facilitate this process. Among OIG’s recommendations
were rigorous daily attentiveness to good fiscal practices that include consistently applying
collection procedures (timely follow-ups on unpaid bills to all primary and secondary insurance
carriers) and complying with precertification and disclosure regulations established by insurance
carriers to increase the likelihood of reimbursement.




                                                                                                  11
OIG Finds Opportunities To Increase Right-of-Way Revenues

OIG audited DOI’s management of rights-of-way (ROWs) and found that an additional $100
million or more could be collected in annual rents should DOI better use market values in its
rent assessments. The additional revenues are not collected because DOI and its bureaus charge
grantees less than market value rents under ROW agreements, provide unjustified rent discounts,
and do not conduct periodic reviews to identify unauthorized services.

A ROW provides a grantee use of Federal or Indian lands for a specified period and purpose,
which fosters the development of domestic energy resources, expansion of communications
infrastructure, and improvements to transportation networks. The Mineral Leasing Act of 1920,
the Indian Right of Way Act of 1948, and the Federal Land Policy and Management Act of 1976
confer authority to DOI to grant a ROW. These statutes require collecting market value rents for
lands used under ROW grants. Market value is generally defined as the price paid and received
by a reasonably knowledgeable and willing owner and buyer at the time of the transaction. The
rent collected on some ROWs can exceed $1 million throughout the ROW’s term.

DOI currently has more than 125,000 ROWs. These include those managed by the Bureau of
Land Management (more than 100,000), the Bureau of Indian Affairs (more than 20,000), and
less than 5,000 each on lands managed by the National Park Service, the Bureau of Reclamation,
and the U.S. Fish and Wildlife Service. ROWs we reviewed are classified as either linear
for roadways, electric transmission lines, oil and gas pipelines, and fiber-optic cables; or as
communications sites for cellular telephone, television, radio, and wireless Internet services.

OIG found that DOI and its bureaus do not set ROW rents based upon market value and
generally do not value ROWs based upon comparable market data. OIG also found that high-
value ROWs are not prioritized for individual valuation, and that valuation services and appraisal
services personnel have not received sufficient training to conduct individual ROW valuations.

In addition, added services on ROWs go unreported or receive unjustified discounts, and rents go
unpaid. No process exists to determine collection of back rents and how much is to be charged,
and rent schedules for communications sites are out of date and do not consider the volume of
the service authorized.

OIG recommended that DOI can increase ROW revenues by conducting ROW rent valuations
based upon actual market values, revising and updating ROW rent schedules, and identifying
unreported services and collecting back rents on ROWs.




12
Improvements Needed To
Effectively Manage BLM’s
Renewable Energy
Program

OIG evaluated the Bureau of Land
Management’s (BLM) renewable
energy activities and found that the
Bureau has opportunities to improve
how it develops and implements
renewable energy policies and
monitors right-of-way requirements.

At the time of our review, BLM had
29 of 31 authorized wind projects in
operation and 5 of 9 authorized solar
projects under construction. Based
on the number of wind-testing
projects and wind and solar
applications, wind projects may
quadruple and solar projects may
increase tenfold in the near future.

BLM has taken aggressive action to
increase its capacity to process
renewable energy grants for rights-
of-way. BLM’s focus on increasing
the number of renewable energy
projects, however, underscores the
need to focus on key requirements in
its management of these projects.




                                        Wind turbine farm near Palm Springs, CA.




                                                                                   13
These include obligations to protect the Government’s financial interests by timely and
accurately collecting rental revenues and managing the bonding process, and to protect the
country’s natural resources by monitoring and enforcing grant requirements. Wind and solar
projects can cover thousands of acres and therefore have the potential for biological, cultural,
historical, paleontological, archaeological, and visual resource degradation.

OIG found that although BLM issued guidance on wind rental payments and wind bonding
requirements, it did not establish a process to ensure timely implementation of the guidance. This
resulted in a loss of $1.2 million in rental revenues on 22 wind projects from calendar years 2009
through 2011 and insufficient bonding by $8.5 million on 14 wind projects. In addition, BLM has
not developed and implemented Bureauwide guidance on monitoring and inspecting wind and
solar projects or for enforcing compliance with right-of-way requirements. OIG also found that
BLM could potentially generate millions of dollars in additional revenues if it used a competitive
award process.

With the projected increase in wind and solar projects on Government lands, BLM has
opportunities to improve its immediate and long-term management of the renewable energy
program, focusing on accurately collecting rental revenues, managing the bonding process,
monitoring and ensuring compliance with right-of-way requirements, and generating additional
revenues by using a competitive award process for wind and solar rights-of-way.




14
Office of Investigations
Two Tribal Committee Members Sentenced for Theft, False Statements

On June 26, 2012, Susie Harge and Amy Fixico, two former chairpersons for the Indian
Education Committee of the Seminole Native American Education Corporation, were sentenced
in the U.S. District Court for the Eastern District of Oklahoma to 3 years of probation,
$22,299.37 in restitution, and a $100 special assessment. Harge and Fixico both submitted
invoices falsely certifying expenditures exceeding $5,000 funded through a Government contract
from 2006 through 2009. The Government contract provides services for the Seminole Public
Schools in Seminole, OK. In December 2011, Harge pled guilty to theft concerning programs
receiving Federal funds. In January 2012, Fixico pled guilty to making false statements.

Eleventh Person Convicted in Fraud Scheme at
Fort Peck Credit Program

OIG initiated an investigation in July 2009 of allegations of improper disbursements by Federal
and tribal employees of the Fort Peck Credit Program. The investigation revealed that all six
employees of the credit program routinely issued themselves, and their family members,
unauthorized disbursements that they were not entitled to receive from credit program bank
accounts. The employees also confessed to intentionally altering credit program records in
September 2007 to conceal the fraud scheme from a Federal review team.

The credit program initially operated with $1.5 million in Federal funds provided by the Bureau
of Indian Affairs (BIA) through the U.S. Direct Loan Fund, which was created to promote access
to capital and increase economic opportunity for American Indians. The Direct Loan was repaid
in full in 1997, and since that date, the credit program operated strictly with tribal funds. The
BIA Branch of Credit maintained oversight of the credit program until June 2008, with BIA
employees exercising approval authority for certain short-term loans and maintaining signature
authority over the credit program bank accounts.

In January 2010, a Federal grand jury in Billings, MT, issued the first of a series of criminal
indictments alleging a 10-year criminal conspiracy operating between 1999 and 2009 to
embezzle more than $1 million from the credit program by the six employees. The employees all
pled guilty to various felony charges, including conspiracy and obstruction of justice, and were
incarcerated with prison terms ranging from 24 to 45 months.




                                                                                              15
OIG expanded the investigation to identify other individuals who assisted in the massive fraud
scheme, including former BIA Agency Superintendent Florence White Eagle, who in November
2011 was sentenced to a 51-month prison term to be followed by 36 months of supervised
probation and was ordered to pay $3,810.42 in restitution, as well as a $600 special assessment.
She has since filed a notice of appeal with the Ninth Circuit Court of Appeals.

On February 16, 2012, a Federal grand jury in Billings, MT, indicted Ashleigh Marie Greybull
for her role in the theft of tribal funds from the credit program. She was also charged with
submitting a false statement to obtain Federal financial aid from the U.S. Department of
Education to attend Montana State University. Greybull was also charged with providing false
statements to OIG investigators. In May 2012, Greybull pled guilty to theft of tribal funds and
was sentenced in August to 18 months in prison, 3 years of supervised probation after release
from prison, and a $100 special assessment. In September, she was ordered to pay restitution in
the amount of $37,713. She has also filed a notice of appeal with the Ninth Circuit Court of
Appeals.

Overall, 11 people have been convicted for their roles in the credit program fraud scheme. The
U.S. District Court for the District of Montana imposed prison sentences of 296 months and
restitution in the amount of $870,016 against these individuals.




                                                                      Oil-drilling rig in the Gulf of Mexico.

16
Former Rig Manager Sentenced for Lying to Federal Agents

On April 5, 2012, Donald Hudson, a former rig manager employed by Helmerich & Payne, Inc.,
pled guilty to one felony count of making a false statement in the U.S. District Court for the
Eastern District of Louisiana.

Hudson lied to an OIG Federal agent, denying he instructed his employees to falsify blowout
preventer tests conducted aboard a drilling rig operating in the outer continental shelf and within
waters regulated by the Bureau of Ocean Energy Management and the Bureau of Safety and
Environmental Enforcement. Hudson later admitted that he instructed his employees to falsify
blowout preventer tests to save the rig downtime and operating costs associated with repairing
leaking valves on the choke manifold, which is used to pressure test the blowout preventer
system. This system is the primary safety device used to maintain well control and ultimately
protect personnel aboard the rig and the environment from unanticipated pressure spikes within
the well bore.

On August 8, 2012, Hudson was sentenced to 2 years of probation and 120 hours of community
service.

Louis Dreyfus Energy Services Pays $4 Million Settlement

Louis Dreyfus Energy Services (LDES) paid the United States $4,084,000 on June 26, 2012, to
settle allegations that it violated the False Claims Act by failing to pay money owed on natural
gas acquired from DOI through the royalty-in-kind program.

The settlement agreement resolved contentions by the United States that from December 2004 to
March 2008, LDES made false claims or misleading statements to DOI involving contracts to
buy natural gas produced from Federal oil and gas leases in the Gulf of Mexico. Starting in 2004,
LDES agreed to pay DOI for natural gas based on a price associated with the delivery of the gas
at a fixed point along a natural gas pipeline. After execution of its contracts with DOI, LDES
requested and received a discount in price for the natural gas obtained under the contracts. The
United States contends that this price discount applied only when there was a complete or near-
complete constraint in the natural gas pipeline such that LDES was unable to transport natural
gas along the pipeline. LDES, however, claimed and obtained the price discounts even when it
was able to ship natural gas along the pipeline.

The investigation and settlement of this matter were jointly handled by the U.S. Attorney for the
District of Colorado; the Justice Department’s Civil Division; DOI’s Office of Natural Resources
Revenue and Office of the Solicitor; and OIG’s Energy Investigations Unit. The claims settled by
this agreement were allegations only, and no determination of liability has been made.
                                                                                                17
Fraudulent Oil Lease Investment Scheme Obtains Almost $700,000

OIG investigated information provided by Bureau of Indian Affairs (BIA) Fort Peck Agency
personnel alleging that Mike Heretel of Domestic Energy Solutions engaged in a fraudulent oil
lease investment scheme on the Fort Peck Indian Reservation.

BIA provided OIG a March 7, 2011 letter from Heretel to an investor in which Heretel purported
that a $4,000 investment entitled the investor to 0.5 percent ownership in Domestic Energy
Solutions and income generated from three specific oil leases on the reservation. Fort Peck
personnel confirmed that Heretel did not own the oil leases referenced in the letter.

The investigation, conducted with the FBI, determined that the name Mike Heretel was used as
an alias by Mike Alfons Campa. OIG determined that Campa and Suzette Gal, under the
company name Domestic Energy Solutions, had obtained three oil and gas leases on the Fort
Peck Indian Reservation in September 2006. BIA later canceled these leases due to Campa and
Gal’s failure to pay the requisite fees associated with the leases.

OIG also determined that from October 2, 2009, through May 25, 2012, Campa and Steven
William Carpenter, under the company names of Domestic Energy Solutions and U.S. Oil and
Gas, LLC, obtained $673,406 from investors in connection with their fraudulent oil and gas
leases on the Fort Peck Indian Reservation.

On September 5, 2012, a Federal grand jury in the U.S. District Court for the District of Montana
indicted Campa; Carpenter; Gal; brothers Andras Zoltan Gal and Krisztian Zoltan George Gal,
who engaged in the creation, care, custody of, and control over the bank accounts in which the
investor funds were deposited; and Dana Yvonne Kent, who was involved in soliciting investor
funds. The indictment charged each defendant with one count of conspiracy, one count of mail
fraud, and one count of wire fraud. The defendants’ trial is scheduled for February 12, 2013.

Former NPS Employee Sentenced to Prison Term and
Must Pay Restitution

OIG investigated Lydia White, a National Park Service (NPS) administrative technician at Great
Sand Dunes National Park and Preserve (GRSA) in Mosca, CO, after receiving information that
White had issued third party drafts (TPDs) payable to her husband, Richard White, totaling more
than $731,000.




18
The investigation, conducted jointly with NPS and the Internal Revenue Service Criminal
Investigation Division, determined that from January 2007 through January 2011, White
embezzled $738,471 by issuing TPDs payable to her husband and used her Government-issued
charge card to make personal purchases.

On October 5, 2011, a grand jury in the U.S. District Court for the District of Colorado indicted
White on 145 counts of theft of Government property and 53 counts of money laundering. On
May 4, 2012, White entered into a plea agreement with the U.S. Attorney’s Office in which she
pled guilty to counts 1 and 150 of the indictment, for theft of Government property and money
laundering, respectively.
On September 21, 2012, White was sentenced to 33 months in prison for both counts, to be
served concurrently. White was also ordered to pay restitution in the amount of $738,471, and
once released from prison, White will serve 3 years of supervised release.

BIE Employee Engaged in Unauthorized Rental Contracts
An OIG investigation determined that, for the past 10 years, a Bureau of Indian Education (BIE)
employee has violated the Miscellaneous Receipts Statute codified in Title 31 U.S.C. § 3302(b)
by his failure to deposit Federal funds into the U.S. Treasury. The employee maintained custody
and control over a bank account at the Native American Bank into which he had deposited
Federal funds generated from the rental of a BIE dormitory and vending machines operated on
Government-owned property.

The employee also created a rental agreement form to rent the dormitory to third-party
organizations during the summer months when school was out of session. The employee was
not a warranted contracting officer and did not have the authority to engage in rental contracts
on behalf of the U.S. Government. He also authorized some of the funds generated from the
rental of the dormitory to be paid directly to the tribe to compensate for the extra cleaning and
maintenance of the dormitory created by the rental of the building. These payments constituted
an unauthorized supplement to an operations and maintenance contract between BIE and the
tribe.

OIG referred its findings to BIE on September 14, 2012, for any administrative actions deemed
appropriate.

Former Council President Sentenced for Misapplication of Funds
OIG investigated a complaint filed by members of the Dot Lake Village Council, a Federally
recognized tribal organization in Alaska, alleging that former Council President Ted Charles
misappropriated approximately $77,000 in Bureau of Indian Affairs (BIA) Federal funds through
a combination of undocumented ATM withdrawals, debit card purchases, unauthorized travel
expenditures, and improper contracting over a 1-year period in 2007.
                                                                                             19
OIG investigators found that Charles intentionally misapplied $24,887 in Federal funds from the
Council, both during his tenure as Council president and after he left the Council for a position as
the chief administrative officer with the Tanana Chiefs Conference, an organization that receives
and administers BIA funds annually. OIG also determined that Charles had borrowed more than
$13,000 in payroll advances from the Council and left with an outstanding balance of $3,990.

On February 1, 2012, Charles pled guilty in the U.S. District Court for the District of Alaska to
one count of misapplication of funds from an organization receiving Federal funds, agreeing
to serve 3 years of probation and to pay $28,877 in restitution, in addition to a $1,000 fine
and a $100 special assessment. He has also resigned from his position with the Tanana Chiefs
Conference. Charles was sentenced in Fairbanks, AK, on April 20, 2012, and paid restitution in
the full amount.

Former FWS Purchasing Agent Agreed To Pay Full Restitution
A purchasing agent for the U.S. Fish and Wildlife Service (FWS) at the Sonny Bono Salton
Sea National Wildlife Refuge in Calipatria, CA, made $30,122 in fraudulent purchases with her
Government charge card between December 2008 and May 2011. She voluntarily provided a
written statement admitting to misusing her Government charge card, and FWS terminated her
employment in September 2011. On March 7, 2012, the purchasing agent was charged in the
Southern District of California with theft of Government property.

On April 24, 2012, she pled guilty to one count of theft of Government property. Her sentencing
hearing is scheduled for October 29, 2012.

Former BIA Employee Pled Guilty to Possession of Child Pornography
OIG and U.S. Immigration and Customs Enforcement initiated a joint investigation in January
2010 after OIG was notified of email correspondence involving Bureau of Indian Affairs
(BIA) employee Jasper Blair that contained an image of child pornography. BIA subsequently
terminated Blair’s employment. Blair was indicted on one count of receipt of child pornography.

On September 26, 2011, Blair appeared before the Magistrate Court in the District of Oregon
where he pled not guilty to receipt of child pornography. On May 31, 2012, he changed his plea
to guilty of one count of possession of child pornography.

Ineligible Company Conspired To Obtain Federal Set-Aside Contracts
OIG initiated an investigation into fraudulently obtained Federal set-aside contracts through the
Small Business Administration (SBA) HUBZone program after receiving a referral from the
Government Accountability Office and the Recovery Accountability and Transparency Board.
Two roofing companies, Construction Service Corporation (CSC) and McDonald Roofing and
Construction (MRC), were used as pass-through companies to obtain Federal contracts that a
20
third company, Quality Tile Roofing (QTR), then performed or subcontracted.

Between 2005 and 2010, CSC, MRC, and various other related partnerships and joint ventures
were awarded more than 21 Government contracts with award amounts totaling more than
$21 million. Twelve of those contracts were awarded through various DOI agencies. CSC was
awarded three DOI HUBZone set-aside contracts. MRC was awarded one DOI HUBZone set-
aside contract.

OIG determined that, as part of a self-certification process, CSC and MRC made false statements
regarding their business operations, ownership, and control to qualify for the SBA HUBZone
program and obtain set-aside Government contracts that QTR would have been otherwise
ineligible to receive. The investigation also revealed that QTR, or other companies subcontracted
by QTR, performed the majority of the work.

On March 15, 2012, in the U.S. District Court for the District of Idaho, MRC was arraigned on
and pled guilty to one count of wire fraud. On July 16, 2012, MRC received a sentence of 3 years
of organizational probation, had a $400 special assessment imposed, and was fined $5,000.

On March 28, 2012, CSC was arraigned on and pled guilty to one count of wire fraud and one
count of false statements. On June 6, 2012, CSC received a sentence of 3 years of organizational
probation on each count, to run concurrently, and was fined $65,000 and assessed an $800 fee.

On February 14, 2012, the owner of QTR, Patrick Large, was indicted on charges of wire fraud,
mail fraud, false statements, and money laundering by a Federal grand jury in the U.S. District
Court for the District of Idaho. On September 18, 2012, Large pled guilty to one count of wire
fraud and consented to a $150,000 forfeiture. Large’s sentencing hearing is scheduled for January
8, 2013.

Bonding Company Owner Indicted
On July 26, 2012, Morris Sears, the owner of a surety bonding company located in Mobile,
AL, was indicted by a Federal grand jury in the U.S. District Court for the Southern District
of Alabama on nine criminal counts. The indictment stemmed from an OIG investigation,
conducted jointly with the U.S. Department of Justice, into the administration of construction
contracts. The indictment alleges that Sears falsified documents related to land that was pledged
for numerous construction bonds. Three of the counts involve National Park Service contracts.




                                                          Back to Toc                           21
Appendices
                                                                                                                                    Appendix 1
Investigations Statistical Highlights
April 1, 2012 - September 30, 2012

Investigative Activities
Cases Closed.................................................................................................................................253
Cases Opened................................................................................................................................241
Hotline Complaints/Inquiries Received........................................................................................113

Criminal Investigation Outcomes
Indictments/Informations...............................................................................................................12
Convictions......................................................................................................................................7
Sentencings....................................................................................................................................14
    Jail.................................................................................................................................124 mos.
    Probation.......................................................................................................................456 mos.
    Criminal Penalties......................................................................................................$1,304,960
Criminal Matters Referred for Prosecution......................................................................................9
Criminal Matters Declined This Period............................................................................................4

Civil Prosecution Outcomes
Civil Referrals...................................................................................................................................4
Civil Declinations..............................................................................................................................2
Civil Settlements...............................................................................................................$4,084,000

Administrative Investigation Outcomes
Suspensions....................................................................................................................6 (123 days)
Resignations/Retirements..................................................................................................................3
Reprimands/Counseling..................................................................................................................10
Reassignments/Transfers...................................................................................................................2
General Policy Actions......................................................................................................................7
Procurement and Non-Procurement Exclusions
   Suspensions.................................................................................................................................3
   Debarments................................................................................................................................10
Bureau Non-Responsive*.................................................................................................................3
   (2 FWS, 1 NPS)


*Bureau Non-Responsive is a category indicating failure by a bureau to respond to a referral for administrative action.




                                                                                                                                               23
Appendix 1
Statistical Highlights
Audit and Evaluation Activities
Reports Issued................................................................................................................................31
   Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications...............25
   Contract and Grant Audits..........................................................................................................5
   Single Audit Quality Control Reviews.......................................................................................1

Audit and Evaluation Impacts
Total Monetary Impacts...................................................................................................$1,034,249
   Questioned Costs (includes unsupported costs)........................................................$1,034,249
   Recommendations That Funds Be Put to Better Use..............................................................$0

     Audit and Evaluation Recommendations Made.......................................................................99
     Audit and Evaluation Recommendations Closed...................................................................142




24
                                                                                     Appendix 2
Reports Issued During the 6-Month Reporting Period
This listing includes all audit, inspection, and evaluation reports issued during the 6-month
period that ended September 30, 2012. It provides the report number, title, issue date, and
monetary amounts identified in each report (* Funds Be Put to Better Use, ** Questioned Costs,
and *** Unsupported Costs).

Audits, Evaluations, and Verifications

       Bureau of Land Management

              CR-EV-BLM-0004-2010
              Final Evaluation Report – Bureau of Land Management’s
              Renewable Energy Program: A Critical Point in Renewable Energy Development
              (06/12/2012)

              C-VS-BLM-0004-2012
              Verification Review of Recommendations for the Flash Report, “Public Safety
              Issues at the Saginaw Hill Property, Bureau of Land Management
              (Report No. C-IN-BLM-0013-2005)” (09/14/2012)

              ER-IS-BLM-0003-2012
              Inspection – Bureau of Land Management: Meadowood Equestrian Facility
              (09/27/2012)

              VI-VS-BLM-0004-2012
              Verification Review – Results of Recommendations for September 2007 Flash
              Report, “Environmental, Health and Safety Issues at Rand Mining District, CA,
              Bureau of Land Management (C-IN-BLM-0012-2007)” (09/27/2012)

       Indian Affairs

              WR-EV-BIA-0005-2011
              Final Evaluation Report – Bureau of Indian Affairs’ Law Enforcement
              Recruitment Services Contract with the National Native American Law
              Enforcement Association (05/09/2012)




                                                                                              25
Appendix 2
             ER-VS-BIA-0001-2012
             Verification Review of Recommendations from our Final Report, “Evaluation of
             BIA’s Process to Approve Tribal Gaming Revenue Allocation Plans”
             (Report No. E-EV-BIA-0071-2002), June 2003 (06/18/2012)

             WR-VS-BIA-0005-2012
             Verification Review of Recommendations from our February 2009 Flash Report,
             “BIA Alaska Regional Indian Reservation Roads Program Rife with
             Mismanagement and Lacking Program Oversight”
             (Report No. WR-IV-BIA-0001-2009) (07/16/2012)

             WR-EV-BIA-0009-2012
             Advisory – Indian Land Consolidation: Probate and Estate Planning Activities
             (08/16/2012)

             Q-VS-BIA-0001-2012
             Verification Review of Recommendations for the Inspection Report, “Inspection
             of the Implementation of the Motor Vehicle Operation Policy, Bureau of Indian
             Affairs (Report No. NM-IS-BIA-0002-2008)” (08/24/2012)

             CR-EV-BIA-0001-2011
             Final Evaluation Report – Oil and Gas Leasing in Indian Country: An Opportunity
             for Economic Development (09/24/2012)

       Insular Area Reports

             VI-IS-VIS-0002-2012
             Evaluation – Verification of Watch Quota and Jewelry Quota Data for Calendar
             Year 2011 Submitted by Firms Located in the U.S. Virgin Islands (04/18/2012)

             HI-EV-GUA-0001-2011
             Final Report – Evaluation of Guam Power Authority (08/09/2012)

             VI-EV-VIS-0002-2011
             Final Evaluation Report – Juan F. Luis Hospital and Medical Center (09/19/2012)




26
                                                                            Appendix 2
Multi-Office Assignments

      ER-EV-MOA-0002-2011
      Final Evaluation Report – Bureau of Land Management and Bureau of Indian
      Affairs Bridge Safety Programs (04/12/2012)

      WR-VS-MOA-0010-2012
      Verification Review of Recommendations of our January 2007 Audit Report,
      “Proper Use of Cooperative Agreements Could Improve Interior’s Initiatives for
      Collaborative Partnerships” (Report No. W-IN-MOA-0086-2004) (07/30/2012)

      ER-VS-MOA-0004-2012
      Verification Review of Recommendations for the Evaluation Report, “Interior
      Lacks Scientific Integrity Policy (WR-EV-MOA-0014-2009)” (09/19/2012)

      X-IN-MOA-0004-2012
      Independent Accountants’ Report on Applying Agreed-Upon Procedures for the
      U.S. Department of the Interior, U.S. Department of Education, U.S. Department
      of Transportation, National Aeronautics and Space Administration, National
      Science Foundation, and Social Security Administration (09/24/2012)

      C-IN-MOA-0013-2010
      Final Audit Report – Management of Rights-of-Way in the U.S. Department of
      the Interior (09/27/2012)

National Park Service

      WR-VS-NPS-0011-2012
      Verification Review of Recommendations of our March 2006 Audit Report,
      “Hawaii Volcanoes National Park: Improved Operations Should Enhance
      Stewardship and Visitor Experience” (Report No. P-IN-NPS-0074-2004)
      (09/10/2012)

Office of Insular Affairs

      HI-EV-OIA-0001-2012
      Final Report – Evaluation of Guam Power Authority (08/09/2012)



                                                                                    27
Appendix 2
             VI-IN-OIA-0005-2012
             Final Evaluation Report – Juan F. Luis Hospital and Medical Center (09/19/2012)

       Office of Natural Resources Revenue

             CR-MA-ONRR-0003-2012
             Management Advisory – Civil Penalty Sharing Provisions of 30 U.S.C. § 1736 for
             Federal Oil and Gas Leases (05/01/2012)

             CR-VS-ONRR-0005-2012
             Verification Review of Recommendations from our May 25, 2012, “Final Audit
             Report: Minerals Management Service: Royalty-In-Kind Program’s Oil Volume
             Verification Process (Report No. C-IN-MMS-0007-2008)” (08/08/2012)

       Office of the Secretary – NBC

             ER-IN-NBC-0001-2011
             DoD’s FY 2010 Purchases Made Through the Department of the Interior
             (04/13/2012)

       U.S. Fish and Wildlife Service

             WR-VS-FWS-0007-2012
             Verification Review of Recommendations of our June 2011 Evaluation Report,
             “U.S. Fish and Wildlife Service Grants and Cooperative Agreements in Hawaii
             and the Pacific Islands” (Report No. HI-EV-FWS-0001-2009) (08/24/2012)

Contract and Grant Audits

       U.S. Fish and Wildlife Service

             R-GR-FWS-0006-2012
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of Florida, Fish and Wildlife Conservation
             Commission, From July 1, 2009, Through June 30, 2011 (05/18/2012)
             **$117,169 ***$20,570




28
                                                                                    Appendix 2
          R-GR-FWS-0005-2012
          U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
          Grants Awarded to the State of Mississippi, Department of Wildlife, Fisheries, and
          Parks, From July 1, 2009, Through June 30, 2011 (05/22/2012)
          **$23,054 ***$10,602

          R-GR-FWS-0003-2012
          U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
          Grants Awarded to the State of New Jersey, Department of Environmental
          Protection, Division of Fish and Wildlife, From July 1, 2009, Through June 30,
          2011 (06/22/2012) **$6,028

          R-GR-FWS-0004-2012
          U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
          Grants Awarded to the State of California, Department of Fish and Game, From
          July 1, 2009, Through June 30, 2011 (06/26/2012) **$82,485 ***$768,852

          R-GR-FWS-0007-2012
          U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
          Grants Awarded to the State of Mississippi, Department of Marine Resources,
          From July 1, 2009, Through June 30, 2011 (08/09/2012) **$5,489

Single Audit Quality Control Reviews

     Multi-Office Assignments

          B-QC-MOA-0002-2012
          Quality Control Review of the State of Yap Audit for Fiscal Year Ending
          September 30, 2012 (07/30/2012)




                                                                                           29
Appendix 3
Monetary Resolution Activities
Table 1: Inspector General Reports With Questioned Costs*

                                 Number of Reports   Questioned Costs*    Unsupported Costs
 A. For which no                       10                   $16,834,530          $14,846,331
 management decision
 has been made by the
 commencement of
 the reporting period.
 B. Which were issued                        5               $1,034,249             $800,024
 during the reporting
 period.
 Total (A+B)                                 15             $17,868,779          $15,646,355
 C. For which a                              13             $17,352,325          $15,445,390
 management decision
 was made during the
 reporting period.

 (i) Dollar value of                                        $15,203,093          $13,297,997
 recommendations
 that were agreed to
 by management.

 (ii) Dollar value of                                        $2,149,232           $2,147,393
 recommendations
 that were not agreed
 to by management.
 D. For which no                             2                $516,454              $200,965
 management decision
 had been made by the
 end of the reporting
 period.


*Note: Does not include non-Federal funds.




30
                                                                                Appendix 3
Monetary Resolution Activities
Table II: Inspector General Reports With Recommendations
         That Funds Be Put to Better Use*

                                             Number of Reports   Dollar Value
 A. For which no management                         2                           $69,883
 decision has been made by
 the commencement of the
 reporting period.
 B. Which were issued during                        0                                 $0
 the reporting period.
 Total (A+B)                                        2                           $69,883
 C. For which a management                          1                           $61,379
 decision was made during the
 reporting period.

 (i) Dollar value of                                                            $61,379
 recommendations that were
 agreed to by management.

 (ii) Dollar value of                                                                 $0
 recommendations that were
 not agreed to by management.
 D. For which no                                    1                            $8,504
 management decision had
 been made by the end of the
 reporting period.


*Note: Does not include non-Federal funds.




                                                                                       31
Appendix 4
Summary of Reports Over 6 Months Old
Pending Management Decision
This listing includes a summary of audit, inspection, and evaluation reports that were more than
6 months old on September 30, 2012, and still pending a management decision. It provides report
number, title, issue date, and number of unresolved recommendations.

Audits, Evaluations, and Verifications

       Bureau of Ocean Energy Management

              CR-EV-MMS-0015-2010
              A New Horizon: Looking to the Future of the Bureau of Ocean Energy
              Management, Regulation and Enforcement (12/07/2010); 1 Recommendation

       Indian Affairs

              WR-EV-BIA-0001-2011
              Advisory – Indian Land Consolidation: Mass Appraisals of Indian Lands
              (06/13/2011); 1 Recommendation

       Insular Area Reports

              P-EV-FSM-0001-2007
              Kosrae State, Federated States of Micronesia: Property Accountability Process
              Needs To Be Improved (10/17/2007); 3 Recommendations

              VI-EV-VIS-0002-2009
              Evaluation Report – Energy Production in the Virgin Islands (12/28/2009);
              4 Recommendations

              VI-IN-VIS-0001-2010
              Audit Report – Administrative Functions – Legislature of the Virgin Islands
              (11/28/2011); 1 Recommendation




32
                                                                                  Appendix 4
          VI-IN-VIS-0003-2009
          Final Audit Report – Capital Improvement Projects Administrative Functions –
          Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
          1 Recommendation; $443,300 unresolved

          VI-IS-VIS-0004-2009
          Inspection Report – Security Improvements at the Governor’s Private Residence
          (01/19/2010); 4 Recommendations; $490,000 unresolved

     Office of the Secretary

          WR-EV-OSS-0005-2008
          Flash Report – Department of the Interior: Risking People and Property by
          Flying Airplanes in Excess of Federal Aviation Administration and Manufacturer
          Specifications (02/09/2009); 1 Recommendation

     U.S. Fish and Wildlife Service

          C-IS-FWS-0017-2010
          Inspection – Status of Rocky Flats National Wildlife Refuge (07/21/2011);
          1 Recommendation

          WR-EV-FWS-0003-2011
          Evaluation Report – U.S. Fish and Wildlife Service Conservation Easement
          Monitoring and Enforcement (01/09/2012); 2 Recommendations

Contract and Grant Audits

     Insular Area Reports

          P-GR-NMI-0003-2005
          Evaluation of Saipan Public Health Facility Project: Oversight of Capital
          Improvement Projects, Commonwealth of the Northern Mariana Islands
          (06/08/2007); 1 Recommendation




                                                                                         33
Appendix 4
       U.S. Fish and Wildlife Service

             R-GR-FWS-0008-2004
             U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
             State of Idaho, Department of Fish and Game, From July 1, 2001, Through June
             30, 2003 (09/30/2005); 15 Recommendations; $519,469 unresolved

             R-GR-FWS-0029-2003
             U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
             State of Washington, Department of Fish and Wildlife from July 1, 2000, through
             June 30, 2002 (03/31/2004); 1 Recommendation




34
                                                                                     Appendix 5
Summary of Reports Over 6 Months Old Pending
Corrective Action
This listing includes audit, inspection, and evaluation reports more than 6 months old with
management decisions for which corrective action has not been completed. It provides report
number, title, issue date, and the number of recommendations without final corrective action.
These audits, inspections, and evaluations continue to be monitored by the Branch Chief for
Internal Control and Audit Follow-up, Assistant Secretary for Policy, Management and Budget,
for completion of corrective action.

       Bureau of Land Management

              CR-EV-BLM-0002-2009
              Evaluation of Bureau of Land Management’s Oil and Gas Lease Auction Process
              (08/26/2009); 2 Recommendations

              CR-EV-BLM-0001-2009
              Evaluation Report of the Bureau of Land Management’s Oil and Gas Inspection
              and Enforcement Program (12/02/2010); 5 Recommendations

              C-IS-BLM-0018-2010
              Bureau of Land Management Wild Horse and Burro Program (12/13/2010);
              3 Recommendations

       Bureau of Ocean Energy Management

              CR-EV-MMS-0015-2010
              A New Horizon: Looking to the Future of the Bureau of Ocean Energy
              Management, Regulation and Enforcement (12/07/2010); 24 Recommendations

       Indian Affairs

              WR-EV-BIA-0002-2010
              Evaluation – Coordination of Efforts to Address Indian Land Fractionation
              (01/04/2011); 6 Recommendations

              WR-EV-BIA-0001-2011
              Advisory – Indian Land Consolidation: Mass Appraisals of Indian Lands
              (06/13/2011); 1 Recommendation
                                                                                            35
Appendix 5
             ER-IN-BIA-0016-2009
             Final Audit Report – Bureau of Indian Affairs: Wildland Fire Suppression
             (07/13/2011); 4 Recommendations

             ER-IS-BIA-0010-2011
             Inspection – U.S. Department of the Interior Program Startup Inspection: Bureau
             of Indian Affairs Youth Initiative Program (11/10/2011); 2 Recommendations

       Insular Area Reports

             V-IN-VIS-0004-2005
             Controls Over Video Lottery Terminal Operations, Government of the Virgin
             Islands (06/08/2007); 2 Recommendations

             P-EV-FSM-0001-2007
             Kosrae State, Federated States of Micronesia: Property Accountability Process
             Needs To Be Improved (10/17/2007); 5 Recommendations

             V-IN-VIS-0011-2006
             Collection of Outstanding Taxes and Fees, Government of the Virgin Islands
             (01/10/2008); 3 Recommendations

             V-IN-VIS-0001-2007
             Administrative Functions, Roy Lester Schneider Regional Medical Center,
             Government of the Virgin Islands (07/28/2008); 4 Recommendations

             P-EV-GUA-0002-2008
             Tax Collection Activities, Government of Guam, Revitalized Tax Collection and
             Enforcement Effort Needed (11/26/2008); 2 Recommendations

             V-IN-VIS-0003-2007
             U.S. Virgin Islands Workers’ Compensation Benefits at Risk (11/28/2008);
             3 Recommendations

             VI-IS-VIS-0002-2008
             Final Evaluation Report – Virgin Islands Police Department Evidence Integrity at
             Risk (03/31/2009); 10 Recommendations




36
                                                                             Appendix 5
     VI-IN-VIS-0003-2009
     Final Audit Report – Capital Improvement Projects Administrative Functions –
     Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
     1 Recommendation

     VI-EV-VIS-0002-2010
     Evaluation Report – Administrative Functions of the Virgin Islands Government
     Employees Retirement System (09/27/2011); 6 Recommendations

     VI-IN-VIS-0001-2010
     Audit Report – Administrative Functions – Legislature of the Virgin Islands
     (11/28/2011); 10 Recommendations

Multi-Office Assignments

     2002-I-0045
     Recreational Fee Demonstration Program – National Park Service and Bureau of
     Land Management (08/19/2002); 1 Recommendation

     E-EV-MOA-0008-2004
     Department of the Interior Workers’ Compensation Program (05/09/2005);
     1 Recommendation

     C-IN-MOA-0049-2004
     Department of the Interior Concessions Management (06/13/2005);
     1 Recommendation

     C-IN-MOA-0007-2005
     U.S. Department of the Interior Radio Communications Program (01/30/2007);
     5 Recommendations

     C-IN-MOA-0004-2007
     Abandoned Mine Lands in the Department of the Interior (07/24/2008);
     2 Recommendations

     X-IN-MOA-0011-2008
     Independent Auditors’ Report on the Department of the Interior Financial
     Statements for Fiscal Years 2008 and 2007 (11/15/2008); 3 Recommendations



                                                                                    37
Appendix 5
             C-EV-MOA-0009-2008
             Evaluation Report on Oil and Gas Production on Federal Leases: No Simple
             Answer (02/27/2009); 1 Recommendation

             WR-EV-MOI-0008-2008
             Employee Relocation, U.S. Department of the Interior (09/21/2009);
             3 Recommendations

             C-IN-MOA-0010-2008
             Audit Report – Department of the Interior Museum Collections: Accountability
             and Preservation (12/16/2009); 9 Recommendations

             CR-IS-MOA-0004-2009
             Inspection Report – BLM and MMS Beneficial Use Deductions (03/08/2010);
             4 Recommendations

             C-EV-MOA-0004-2009
             Evaluation Report – Geothermal Royalties (03/09/2010); 1 Recommendation

             C-IN-MOA-0001-2009
             Final Audit Report – Department of the Interior’s Management of Land
             Boundaries (07/16/2010); 3 Recommendations

             ER-EV-MOA-0012-2009
             Wildland Urban Interface: Community Assistance (07/30/2010);
             3 Recommendations

             C-EV-MOA-0010-2010
             Final Evaluation Report – Portable Nuclear Gauges (09/28/2011);
             1 Recommendation

             X-IN-MOA-0006-2011
             Independent Auditors’ Report on the U.S. Department of the Interior Financial
             Statements for Fiscal Years 2011 and 2010 (11/15/2011); 1 Recommendation

             WR-EV-MOA-0004-2010
             Final Evaluation Report – U.S. Department of the Interior’s Video
             Teleconferencing Usage (12/20/2011); 5 Recommendations



38
                                                                                Appendix 5
National Park Service

     C-IN-NPS-0013-2004
     The National Park Service’s Recording of Facility Maintenance Expenditures
     (01/26/2005); 2 Recommendations

     HI-EV-NPS-0001-2010
     Evaluation – National Park Service: Climate Friendly Parks Initiative
     (08/12/2011); 3 Recommendations

     ER-IS-NPS-0014-2011
     Inspection – National Park Service Visitor Donation Boxes (03/08/2012);
     3 Recommendations

Office of Surface Mining

     ER-IS-OSM-0011-2011
     Inspection – U.S. Department of the Interior Program Startup Inspection:
     Office of Surface Mining Appalachian Regional Reforestation Initiative
     (11/10/2011); 1 Recommendation

Office of the Secretary

     WR-EV-OSS-0012-2009
     Evaluation Report on the Department of the Interior’s Appraisal Operations
     (12/23/2009); 1 Recommendation

Office of the Secretary – NBC

     ER-IS-NBC-0003-2011
     Inspection – Acquisition Service Directorate – Sierra Vista Organization
     (07/14/2011); 2 Recommendations

U.S. Bureau of Reclamation

     C-IS-BOR-0006-2010
     Inspection Report – Museum Collections: Preservation and Protection Issues with
     Collections Maintained by the Bureau of Reclamation (01/29/2010);
     1 Recommendation

                                                                                       39
          WR-FL-BOR-0007-2010
          Follow-up – Bureau of Reclamation’s Management of Exclusive Use Recreation
          Areas (02/24/2011); 3 Recommendations

          WR-EV-BOR-0007-2011
          Final Evaluation Report – Bureau of Reclamation’s Safety of Dams: Emergency
          Preparedness (02/27/2012); 5 Recommendations

     U.S. Fish and Wildlife Service

          NM-EV-FWS-0001-2010
          Evaluation – The National Bison Range (03/30/2011); 1 Recommendation

          WR-EV-FWS-0003-2011
          Evaluation Report – U.S. Fish and Wildlife Service Conservation Easement
          Monitoring and Enforcement (01/09/2012); 3 Recommendations




40                                                      Back to Toc
Cross-References to the Inspector General Act
                                                                                       Page
Section 4(a)(2)            Review of Legislation and Regulations                       N/A*

Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies              5-21

Section 5(a)(2)            Recommendations for Corrective Action With Respect          32-40
                           to Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)            Significant Recommendations From Agency’s Previous          35-40
                           Reports on Which Corrective Action Has Not Been Completed

Section 5(a)(4)            Matters Referred to Prosecutive Authorities and             23
                           Resulting Convictions

Section 5(a)(5)            Matters Reported to the Head of the Agency                  N/A

Section 5(a)(6)            Audit Reports Issued During the Reporting Period            25-29

Section 5(a)(7)            Summary of Significant Reports                              5-21

Section 5(a)(8)            Statistical Table: Questioned Costs                         30

Section 5(a)(9)            Statistical Table: Recommendations That Funds Be Put        31
                           to Better Use

Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement     32-34
                           of the Reporting Period for Which No Management Decision
                           Has Been Made

Section 5(a)(11)           Significant Revised Management Decisions Made               N/A
                           During the Reporting Period

Section 5(a)(12)           Significant Management Decisions With Which                 N/A
                           the Inspector General is in Disagreement

Section 5(a)(13)           Information Described Under Section 804(b) of the Federal   N/A
                           Financial Management Improvement Act of 1996

*N/A: Not applicable to this reporting period.
                                                                                              41
U.S. Department of the Interior
  Office of Inspector General
        1849 C St., NW.
      Mail Stop 4428, MIB
     Washington, DC 20240

       www.doioig.gov

     Phone: 202-208-4618
      Fax: 202-208-6062
